           Office of Inspector General




January 25, 2005

JOHN A. RAPP
SENIOR VICE PRESIDENT, OPERATIONS

LYNN MALCOLM
ACTING VICE PRESIDENT, FINANCE, CONTROLLER

KEITH STRANGE
VICE PRESIDENT, SUPPLY MANAGEMENT

SUBJECT: Audit Report – Mail Transport Equipment Service Center Network –
         Network Realignment – Pittsburgh, Detroit, Cleveland
         (Report Number NL-AR-05-001)

This report presents results from our audit of the mail transport equipment service
center network (Project Number 04YG003NL001). It responds to a Board of Governors’
request.

Postal Service officials are realigning the service center network to integrate or
consolidate operations, close facilities, and save money. As part of realignment,
officials planned to close service centers in Pittsburgh and Detroit, and consolidate
operations in Cleveland. On March 12, 2004, an employee of the incumbent
Pittsburgh-Detroit contractor wrote to the Board of Governors and asserted that the
Postal Service never solicited revised pricing from the incumbent contractor and that
retaining operations in Pittsburgh and Detroit would be cheaper than moving to
Cleveland. On March 24, 2004, the Board of Governors asked us to examine the plan,
and notify them before the Postal Service moved operations to Cleveland. The
Cleveland contract award was scheduled for May 7, 2004.

Ultimately, the Postal Service decided not to move consolidated operations to
Cleveland. On August 6, 2004, management entered a five-year, xxxxxxxxxx
agreement with the incumbent Pittsburgh-Detroit contractor. The agreement, which
included two option periods, will retain existing operations in Pittsburgh and Detroit, and
is anticipated to save more than $21.6 million over a five-year period compared to
current costs.




   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
Management’s approach to achieving savings began with a belief that creating
competition among contractors would place the Postal Service in a strong negotiating
position, and ultimately maximize savings. The approach of creating competition
between contractors has merit. In the case of the proposed Cleveland move, we
believe management could have enhanced competition and the probability of attaining
and maximizing savings by conducting thorough analytics in advance, including:

   •   Gathering data consistently on all potential regional sites.

   •   Analyzing all potential sites before issuing a solicitation for bids exclusively on
       Cleveland.

   •   Putting the incumbent contractor and other potential regional bidders in direct
       competition.

Postal Service investment policy governing “expense investments” requires major
operational changes to be thoroughly analyzed before they are made. Management did
not consider closing service centers in Pittsburgh and Detroit, and consolidating those
operations in Cleveland, to be major. Consequently, management did not adhere to the
rigorous analytical procedures specified by investment policy. We recognize
management’s need to quickly react to a rapidly changing operational environment;
however, we are concerned about a potential policy void covering operational changes
when management does not consider such changes major operating expense
investments. Consequently, in the context of our process for reviewing proposed policy,
we would welcome an opportunity to work with management to clarify investment policy,
and establish procedures for operational changes when those changes are not
considered “expense investments.”

We recommended that Postal Service management (1) clarify investment policy
pertaining to expense investments, and (2) establish guidance to clarify the appropriate
level of decision analysis and authority, consistent with the magnitude of the business
decision being made, when major operational decisions are not covered by investment
policy.

Management agreed with our first recommendation, disagreed with our second, and
made several additional comments. We have addressed all of management’s
disagreements and comments. Management’s comments and our evaluation of their
comments are included in this report.

We view recommendations 1 and 2 as inextricably linked. Beginning in 2002—in
response to this and previous audits—management essentially agreed with
recommendation 1 by promising to revise and clarify investment policy. Since we
consider recommendations 1 and 2 linked, we will monitor the progress of
management’s proposed policy revision.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant,
and therefore requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Joe Oliva
Director, Network Operations and Logistics, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: Paul E. Vogel
    Anthony M. Pajunas
    Shibaji Chakraborty
    Anthony E. Mazzei
    Steven R. Phelps
Mail Transport Equipment Service Center Network –                                 NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                                       INTRODUCTION
Background                     The mail transport equipment service center network is a
                               system of 22 contractor operated service centers designed
                               to supply mailbags, carts, hampers, and other mail transport
                               equipment to mail processing facilities nationwide. The
                               original plan to create the network was presented to the
                               Postal Service Board of Governors in Decision Analysis
                               Report, Mail Transport Equipment Service Center Network,
                               dated May 13, 1997. The Decision Analysis Report forecast
                               costs exceeding $3.6 billion over ten years, and was
                               approved by the Governors in June 1997. The new network
                               became fully operational in January 2000.




        The Pittsburgh
  Mail Transport Equipment
        Service Center.




                               In response to a challenge from the Executive Vice
                               President, Chief Operating Officer, last year, Postal Service
                               Network Operations Management developed a plan to
                               realign the network to integrate or consolidate operations,
                               close facilities, increase efficiency, and save money. The
                               existing Pittsburgh-Detroit five-year cost forecast exceeded
                               xxxxxxxxxxxxxx. Network Operations Management
                               believed that if Pittsburgh and Detroit could be consolidated
                               at a large, newly established service center in Cleveland,
                               the Postal Service could save money.



                                                   1
Mail Transport Equipment Service Center Network –                                  NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                               On March 5, 2004, the Postal Service contracting officer
                               issued a solicitation for bids on the consolidated Cleveland
                               site. On March 12, 2004, an employee of the incumbent
                               Pittsburgh-Detroit contractor wrote to the Board of
                               Governors and alleged or asserted:

                                   •   The Postal Service never solicited revised pricing
                                       from the incumbent contractor.

                                   •   Retaining operations in Pittsburgh and Detroit would
                                       be cheaper than moving operations to Cleveland.

                               The contractor’s officials subsequently reiterated their
                               employee’s allegations and assertions. On March 24, 2004,
                               the Board of Governors asked us to examine the plan, and



   Plastic and cardboard
      mail containers.

 Mail transport equipment
    service centers are
     logistical support
   activities that supply
   mailbags, carts, and
   other equipment, like
 these containers, to mail
   processing facilities
         nationwide.


                               notify them before the Postal Service moved operations to
                               Cleveland. Cleveland contract award was scheduled for
                               May 7, 2004.

Objective, Scope, and          This report responds to the Board of Governors’ request. Its
Methodology                    objective is to provide the results of our examination of the
                               proposed Cleveland move.

                               During our work, we examined contract solicitations,
                               correspondence, media articles, relevant policies and
                               procedures, and assessments prepared by the Postal
                               Service.

                               We included all relevant comments, where appropriate. We
                               also consulted with economists, financial analysts, and
                               other subject matter experts.


                                                   2
Mail Transport Equipment Service Center Network –                                   NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland



                               Work associated with this report was conducted from
                               March 2004 through January 2005, in accordance with
                               generally accepted government auditing standards, and
                               included such tests of internal controls as we considered
                               necessary under the circumstances.

Prior Audit Coverage           Our audit report, Mail Transport Equipment Service Center
                               Decision Analysis Report, Performance and Financial
                               Benefit (Report Number TR-AR-01-003, dated
                               May 4, 2001), concluded the network would not achieve the
                               financial benefits anticipated by the Decision Analysis
                               Report and would instead, exceed the ten-year $3.6 billion
                               forecast by more than $1.4 billion. Transportation cost was
                               the most significant cost overrun, accounting for more than
                               $1 billion of the total, and resulted from insufficient analysis
                               of transportation requirements. We recommended, in part,
                               that management develop a Decision Analysis Report
                               Modification Request in accordance with investment policy.
                               Management disagreed. They stated the network was not a


   Our 2001 audit report
   identified $1 billion in
       potential MTE
    transportation cost
         overruns.

  The audit concluded that
     transportation cost
   overruns were caused,
   in part, by insufficient
    analysis of network
        transportation
        requirements.



                               capital investment and consequently, was not subject to
                               investment policy. As a result of management’s
                               disagreement, we referred the matter to audit resolution.
                               Postal Service Headquarters Finance, which is the
                               proponent for investment policy, stated that although the
                               network was not a “capital investment,” it was a “major
                               operating expense investment,” and therefore subject to
                               investment policy. Postal Service investment policy
                               includes rigorous analysis, documentation, and approval
                               requirements. In addition, it requires independent validation
                               by Capital and Program Evaluation officials in Headquarters
                               Finance.


                                                   3
Mail Transport Equipment Service Center Network –                                   NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland



                                            RESULTS
Proposed Service               The Postal Service will retain operations in Pittsburgh and
Center Consolidation           Detroit rather than consolidating operations in Cleveland.
and Relocation                 Postal Service documents we examined indicate that the
                               new Pittsburgh-Detroit contract will save more than
                               $21.6 million over the five-year contract term including
                               two option periods when compared to current contract
                               costs. Management’s approach to achieving savings began
                               with a belief that creating competition among contractors




      A mail transport
   equipment shipment
 arriving at the Pittsburgh
       service center.

     The service center
   network has dedicated
      transportation.




                               would place the Postal Service in a strong negotiating
                               position, and ultimately maximize savings. The approach of
                               creating competition between contractors has merit. In the
                               case of the proposed Cleveland move, we believe
                               management could have enhanced competition, and
                               increased the probability of attaining and maximizing
                               savings by conducting thorough analytics in advance,
                               including:

                                   •   Gathering data consistently on all potential regional
                                       sites.

                                   •   Analyzing all potential sites before issuing a
                                       solicitation for bids exclusively on Cleveland.

                                   •   Putting the incumbent contractor and other potential
                                       regional bidders in direct competition.



                                                   4
Mail Transport Equipment Service Center Network –                                   NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                               Instead, the competitive effort was initially focused
                               exclusively on Cleveland. On March 5, 2004, the date of
                               the Cleveland solicitation, the contracting officer anticipated
                               the following schedule:

                                   •   April 15, 2004 – Cleveland bids due.

                                   •   May 7, 2004 – Cleveland contract award.

                                   •   June 21, 2004 – Detroit closure.

                                   •   August 20, 2004 – Pittsburgh closure.

                                   •   August 30, 2004 – Cleveland fully operational.

                               On March 22, 2004, Postal Service officials met with United
                               States Senator, Carl Levin, from Michigan, and United
                               States Congressman, John D. Dingell, from the Detroit area.
                               Despite the anticipated Cleveland contract award within
                               47 days, the officials promised Senator Levin and
                               Congressman Dingell that the incumbent Pittsburgh-Detroit
                               contractor would be given an opportunity to reprice existing
                               operations, and no final decision would be made until an
                               analysis was completed and independently validated. After
                               the meeting, the following events took place:

                                   •   April 6, 2004 – The contracting office offered the
                                       incumbent contractor an opportunity to reprice
                                       existing Pittsburgh-Detroit operations.

                                   •   April 19, 2004 – The incumbent contractor submitted
                                       a reprice offer.

                                   •   April 26, 2004 – The contracting officer reported that
                                       the repriced Pittsburgh-Detroit operation would be
                                       $33 million cheaper than the Cleveland low bid.

                                   •   May 6, 2004 – The Office of Inspector General (OIG)
                                       provided interim audit results to the Board of
                                       Governors.

                                   •   May 27, 2004 – Management completed a review of
                                       the proposed Cleveland move and concluded any




                                                   5
Mail Transport Equipment Service Center Network –                                   NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland



                                       potential savings in Cleveland were more than offset
                                       by a 104 percent increase in transportation costs.

                                   •   June 24, 2004 – The contracting officer calculated
                                       that repriced Pittsburgh-Detroit operations could save
                                       more than $21.6 million over the five-year contract
                                       period, including two option periods, when compared
                                       to current Pittsburgh-Detroit costs.

                                   •   July 6, 2004 – The contracting officer received
                                       authorization to make contract award to the
                                       incumbent contractor.

                                   •   August 6, 2004 – A five-year xxxxxxxxxx contract
                                       was awarded to the incumbent Pittsburgh-Detroit
                                       contractor. The contracting officer forecast savings
                                       exceeding $21.6 million over the contract term
                                       including two option periods.

Decision Analysis              Management could assure savings are attained and
Policy                         maximized by following the concepts and principles of
                               Postal Service investment policy. For example, investment
                               policy requires major decisions to be thoroughly analyzed
                               before they are made. However, the analysis identifying the
                               104 percent increase in transportation costs was not made
                               until after the decision to solicit bids exclusively on
                               Cleveland. Had the analysis been made in advance,
                               management might have concluded Cleveland was not
                               feasible, and competed Pittsburgh-Detroit instead. Since
                               the analysis was not made in advance, Pittsburgh-Detroit
                               was not directly competed, and it is uncertain whether
                               management’s competitive approach was maximized, or the
                               incumbent’s reprice minimized.

                               Postal Service Handbook F-66, General Investment
                               Policies and Procedures, dated February 2002, identifies
                               two investments categories subject to its provisions.

                                   •   Capital Investments – This category includes
                                       investment in facilities, vehicles, or equipment.

                                   •   Expense Investments – This category includes major
                                       operational changes that result in operating fund
                                       expenditures exceeding $7.5 million.


                                                   6
Mail Transport Equipment Service Center Network –                                 NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland



                               Analytical procedures specified by Handbook F-66 were not
                               completed in advance of the Cleveland solicitation because
                               it is unclear when the provisions apply. For example, the
                               OIG considers the mail transport equipment service center
                               network a “major operating expense investment” subject to
                               investment policy. The OIG holds that position because:

                                   •   The initial ten-year $3.6 billion mail transport
                                       equipment service center network plan was
                                       presented to the Board of Governors in a Decision
                                       Analysis Report in accordance with investment
                                       policy.

                                   •   In response to our previous audit report, Mail
                                       Transport Equipment Service Center Decision
                                       Analysis Report, Performance and Financial Benefit
                                       (Report Number TR-AR-01-003, dated May 4, 2001),
                                       management acknowledged that the network was a
                                       “major operating expense investment” subject to
                                       investment policy.

                               During our current audit, we took the position that a decision
                               to restructure the mail transport equipment service center
                               network by closing Pittsburgh and Detroit, and consolidating
                               operations in Cleveland, met the definition of a “major
                               operational change” as defined by investment policy. We
                               believe the decision was “major” because:

                                   •   The five-year plan to consolidate Pittsburgh-Detroit
                                       operations in Cleveland would cost more than
                                       xxxxxxxxxxxxxxxxx, and investment policy defines
                                       the threshold for a “major operating expense
                                       investment” as the expenditure of operating funds in
                                       excess of $7.5 million over a project period.

                                   •   The plan involved the loss of more than 300 jobs in
                                       Detroit and Pittsburgh.

                                   •   The plan attracted significant media and
                                       Congressional attention.

                               Consequently, it was our opinion that such a major
                               operational change should be supported by a thorough,
                               structured, and transparent analysis; adequate


                                                   7
Mail Transport Equipment Service Center Network –                                   NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                               documentation; rigorous independent validation; and a
                               formal written report, which was approved and signed by
                               officials at the appropriate level.

Network Operations             Network Operations officials explained that the system of
Management                     22 mail transport equipment service centers was not a
                               network in a true sense, and that restructuring was not
                               analogous to the network integration and alignment they
                               now referred to as evolutionary network design. The
                               officials stated that there was no overarching strategy for
                               service center realignment; that the system was established
                               incrementally with different contracts; and that to save
                               money, each contract had to be considered separately.

                               The officials emphasized that in the context of a $6 billion
                               transportation network, closing service centers in Pittsburgh
                               and Detroit, and consolidating operations in Cleveland, was
                               not major. Instead, it was merely an adjustment, and
                               consequently, did not trigger the requirement for a formal
                               Decision Analysis Report. In addition, the officials stated
                               that because technology and the customer base were
                               rapidly evolving, their adjustments would be obsolete in
                               18 months, and a formal 5-year planning model was not
                               feasible. They explained that rather than a rigorous
                               analytical process, creating a competitive environment
                               based on a certain degree of speculation was the best
                               approach. They also emphasized that because of the
                               rapidly changing environment, every decision could not be
                               brought to the Board of Governors.

Finance                        Capital and Program Evaluation officials in headquarters
                               Finance develop and maintain corporate investment policy
                               and procedures. They also manage the Decision Analysis
                               Report process specified by investment policy, and validate
                               Decision Analysis Reports prepared by project sponsors like
                               Network Operations.

                               Capital and Program Evaluation officials emphasized that
                               every business decision does not rise to a level requiring a
                               Decision Analysis Report. They explained that criteria for a
                               Decision Analysis Report was defined in the F-66 Handbook
                               series, and if a project met those criteria, the analysis had to
                               be rigorous, provide supporting documentation that was
                               auditable, and include:




                                                   8
Mail Transport Equipment Service Center Network –                                   NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                                   •   Analytical assumptions, factors, and financial impacts
                                       that were documented and auditable.

                                   •   A cost/benefit analysis, consideration of other
                                       alternatives, and a risk assessment.

                                   •   Detailed backup documentation signed and
                                       authenticated by appropriate subject matter experts
                                       who were usually independent from the project
                                       sponsor.

                                   •   Backup documentation organized in a way that
                                       allowed review by other organizations such as the
                                       Government Accountability Office or the OIG.

                                   •   Appropriate concurrences from headquarters
                                       functional components and Area Vice Presidents.

                               Officials explained that they were occasionally asked to
                               review the reasonableness of an assessment other than a
                               Decision Analysis Report, and that such reasonableness
                               reviews, while not cursory, were less in scope than a formal
                               validation. In addition, they explained that they were
                               specifically asked to review the Pittsburgh, Detroit,
                               Cleveland assessment, and that because the assessment
                               was not a Decision Analysis Report, their work was a
                               review, not a validation. The officials also stated that they
                               were not aware of any specific procedural guidance similar
                               to Decision Analysis Report or validation procedures, which
                               applied when a major operating decision was not
                               considered an operating expense investment.

Contracting                    The contracting officer stated that normally the contracting
                               office asked sponsors to prepare a detailed cost-benefit
                               analysis before bids were solicited. However, in the case of
                               Cleveland, contracting was presented with a summary
                               transition plan document. The contracting officer explained
                               that after the Cleveland bids were received, officials would
                               analyze the proposed restructuring using actual bid data.

                               The contracting officer emphasized that to get bids as low
                               as possible, after initial bid receipt, qualified contractors
                               would compete directly against each other in a “reverse
                               auction” to determine which contractor would achieve the
                               lowest bid. However, the contracting officer stipulated:


                                                   9
Mail Transport Equipment Service Center Network –                                    NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland




                                   •   The incumbent Pittsburgh-Detroit contactor did not
                                       compete in the “reverse auction” because that
                                       contractor did not submit a proposal for the original
                                       Cleveland solicitation.

                                   •   There was no solicitation to re-compete the
                                       Pittsburgh-Detroit facilities nor a competitive “reverse
                                       auction” procedure focused on Pittsburgh-Detroit.

                                   •   Actual data from sites other than Cleveland would not
                                       be available for decision analysis since bids on
                                       alterative sites were not solicited.

                                   •   Normally, reprice opportunities were given to
                                       incumbent contractors four to six months before
                                       contract termination, and that it was unusual for a
                                       rebid opportunity to be offered to an incumbent
                                       contractor after a solicitation for bids on an alternate
                                       site.

The Pittsburgh,                On May 25, 2004, Network Operations completed their
Detroit, Cleveland             assessment of the proposed restructuring. The assessment
Assessment                     was a compilation of tables and spreadsheets, it contained
                               no narrative or analytical assumptions, source documents
                               were not referenced or validated, and backup
                               documentation was not organized or readily available. Sites
                               other than Cleveland were not identified, considered, or
                               explored. There were no concurrences from affected
                               functional components or Area Vice Presidents, the
                               document offered no narrative report or conclusion, and the
                               document was not approved or signed.

                               On May 27, 2004, Capital and Program Evaluation
                               completed their independent review of the Network
                               Operations’ assessment. The review was presented
                               informally on a Capital and Program Evaluation routing slip
                               with four attached worksheets. It did not independently test
                               the accuracy of underlying data, qualified that it was based
                               only on data provided by Network Operations, and it was
                               not signed or approved. However, the review did include a
                               narrative explaining that retaining Pittsburgh-Detroit was
                               economically superior to consolidating in Cleveland.



                                                  10
Mail Transport Equipment Service Center Network –                                 NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland



                               It is the OIG’s position that the analytical, validation, and
                               approval procedures established by Postal Service
                               investment policy for operating expense investments is an
                               excellent framework for analyzing, validating, and approving
                               major operating decisions.

                               It is also the OIG’s opinion that closing, consolidating, and
                               relocating service centers is a major operational change as
                               defined by investment policy, and is consequently subject to
                               that policy. We believe that had management followed the
                               procedures specified by the F-66 Handbook series, they
                               would have thoroughly analyzed the Pittsburgh, Detroit,
                               Cleveland plan, and would have offered the incumbent
                               Pittsburgh-Detroit contractor an opportunity to reprice
                               existing operations before soliciting bids exclusively on the
                               Cleveland location.




    Contract employee
    sorting mailbags.

    The service center
   network is contractor
        operated.




                               Notwithstanding our opinion, we recognize management’s
                               need to quickly react to rapidly changing requirements
                               in a fluid operational environment. In response to a
                               previous audit, Trailer Lease Justification (Report Number
                               TD-AR-02-002, dated March 29, 2002), management
                               agreed to modify investment policy to clarify certain aspects
                               of investment policy provisions. We believe this is a good
                               strategy, and we would welcome the opportunity to work
                               with management in the context of our process for reviewing
                               proposed policy revisions. We remained concerned about a


                                                  11
Mail Transport Equipment Service Center Network –                                 NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                               potential policy void covering major operational changes or
                               initiatives which management does not consider major
                               operating expense investments.

Recommendation                 We recommend the Senior Vice President, Operations, in
                               coordination with the Acting Vice President, Finance,
                               Controller, and Vice President, Supply Management:

                                   1. Clarify the provisions of Postal Service investment
                                      policy, particularly with regard to the definition of
                                      expense investments, so that Postal Service officials
                                      and managers have a clearer understanding as to
                                      when investment policy applies.

Management’s                   Management agreed that Postal Service investment policy
Comments                       concerning expense investments needed clarification. They
                               stated that they would re-write the appropriate provisions as
                               part of an entire revision of Postal Service Handbook F-66,
                               General Investment Policies and Procedures. Management
                               also stated that they anticipated issuance of the revised
                               policy not later than September 2006. Management’s
                               comments, in their entirety, are included in Appendix A of
                               this report.

Evaluation of                  Management’s comments were responsive to our
Management’s                   recommendation and we consider the planned policy
Comments                       revision sufficient to address the issues we identified. In
                               their response to the 2002 audit we cited earlier,
                               (Report Number TD-AR-02-002, dated March 29, 2002),
                               management made the same commitment by agreeing to
                               immediately modify Handbook F-66. We reiterate that we
                               welcome the opportunity to work with management in the
                               context of our process for reviewing proposed policy
                               revisions.

Recommendation                     2. Establish guidance to clarify the appropriate level of
                                      decision analysis and authority, consistent with the
                                      magnitude of the business decision being made,
                                      when major operational decisions are not covered by
                                      investment policy.

Management’s                   Management disagreed with our recommendation. They
Comments                       explained that: (1) it was unlikely guidance could be written
                               that would account for all possible business decisions faced
                               by managers; (2) they empowered managers to make


                                                  12
Mail Transport Equipment Service Center Network –                                 NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                               decisions; (3) they expected their managers to make those
                               decisions in a business like manner; and (4) their existing
                               review processes provided the proper level of oversight for
                               decisions being made.

Evaluation of                  Management’s comments were not responsive to our
Management’s                   recommendation. Our recommendation did not contemplate
Comments                       specific written guidance “for all possible business decisions
                               faced by . . .managers.” It was intended for “major
                               operational decisions” not covered by policy. For reasons
                               explained earlier, we believe the decision to close service
                               centers in Pittsburgh and Detroit, and consolidate
                               operations in Cleveland, was major. Consequently, we
                               believe the decision warranted formal analysis,
                               documentation, oversight, and approval.




   Detroit Mail Transport
    Equipment Service
           Center
    September 16, 2004




                               However, even if Postal Service officials believe such an
                               operational decision does not meet the “major operating
                               expense investment” criteria specified by their investment
                               policy, federal standards still require analysis,
                               documentation, oversight, and formal authorization
                               protocols. These provisions are intended to help program
                               managers prevent error. Despite management’s assertion
                               that existing review processes provide the proper level of
                               oversight for operational decision making, it is not certain
                               current processes are sufficient to prevent error.

                               For example, in their comments, management
                               acknowledged that their decision to close Pittsburgh and
                               Detroit—and move to Cleveland—was already made before


                                                  13
Mail Transport Equipment Service Center Network –                                 NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                               they completed their assessment. Had management
                               executed its original decision, the Postal Service might have
                               spent $33 million too much for an operation now anticipated
                               to cost xxxxxxx. We believe any decision to spend
                               $33 million more than necessary on a xxxxxx program
                               would be a significant error—and as federal internal control
                               standards suggest—well defined policies, procedures, and
                               authorization protocols are needed to prevent such errors.

                               We view recommendations 1 and 2 as inextricably linked.
                               Beginning in 2002—in response to this and other reports—
                               management essentially agreed with recommendation 1 by
                               promising to revise and clarify policy. Since we consider
                               recommendations 1 and 2 linked, we will monitor the
                               progress of management’s proposed policy revision.

Additional                     Management made several additional comments. In some
Management                     cases, we discussed the additional comments with
Comments                       management and made minor adjustment to the text of our
                               report. In addition, we addressed management’s more
                               significant additional comments in Appendix B




                                                  14
Mail Transport Equipment Service Center Network –       NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


                  APPENDIX A. MANAGEMENT’S COMMENTS




                                                  15
Mail Transport Equipment Service Center Network –       NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland




                                                  16
Mail Transport Equipment Service Center Network –       NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland




                                                  17
 Mail Transport Equipment Service Center Network –                            NL-AR-05-001
  Network Realignment – Pittsburgh, Detroit, Cleveland


                                           APPENDIX B

    OIG RESPONSE TO ADDITIONAL MANAGEMENT’S COMMENTS

Additional Management’s Comments

Management stated that it was their position “the original MTESC project was not
approved as a Decision Analysis Report.”

Evaluation of Additional Management’s Comments

Management’s statement is inconsistent with the facts as they exist. The original plan
to create the network was presented to the Postal Service Board of Governors in
Decision Analysis Report, Mail Transport Equipment Service Center Network, dated
May 13, 1997. The Decision Analysis Report anticipated costs exceeding $3.6 billion
over ten years, and was approved by the Governors in June 1997. The new network
became fully operational in January 2000. On June 6, 2001, Postal Service
management agreed the project was a “major operating expense investment” subject to
investment policy.

Additional Management’s Comments

Management made various suggestions regarding our description of their August 6,
2004 agreement with the incumbent Pittsburgh-Detroit contractor. We described the
agreement as a five-year xxxxxxxxxxxxx contract the contracting officer anticipated
would save more than $21.6 million over the five-year contract period.

Evaluation of Additional Management’s Comments

Management stipulated that the agreement was not a new five-year xxxxxxxxxx
contract, but the modification of an existing contract with successive renewal options as
follows:

                        Initial 2-year extension         xxxxxxxxxx

                        Additional 2-year option         xxxxxxxxxx

                        Additional 1-year option         xxxxxxxxxx

                        Total 5-year agreement           xxxxxxxxxx

Management also explained that the contracting officer’s $21.6 million saving forecast
was only valid if all contract options were exercised.

Management’s $21.6 million savings estimate was based on their assessment of the
entire five-year agreement, including all renewal options. We understand that if


                                                   18
 Mail Transport Equipment Service Center Network –                                NL-AR-05-001
  Network Realignment – Pittsburgh, Detroit, Cleveland


management does not execute all options, the savings they now anticipate will be
different, and potentially, may not be achieved at all.

Additional Management’s Comments

Management objected to our statement that the incumbent contractor and other regional
bidders were not put in direct competition with Cleveland bidders, and were not included
in a competitive reverse auction. Management pointed out that the incumbent
Pittsburgh-Detroit contractor was free to bid on the Cleveland site, and had the
incumbent contractor chosen to do so, the incumbent contractor would have been
included in the Cleveland reverse auction.

Regarding a potential Pittsburgh-Detroit reverse auction, management explained that
there was no need for such an auction because the decision to close Pittsburgh-Detroit,
and move to Cleveland, was already made before the Cleveland solicitation.
Management emphasized that before the solicitation on March 5, 2004, both Detroit and
Pittsburgh were eliminated from consideration as sites for continuing operations.

Evaluation of Additional Management’s Comments

We understand that the incumbent Pittsburgh-Detroit contractor was free to bid on
Cleveland—and opted not to do so. Our concern was not about individual contractors
bidding against each other on the preselected Cleveland site. Our focus was about
putting the incumbent contractor and other potential regional bidders in direct
competition in order to optimize potential savings. For example, in addition to
Pittsburgh and Detroit, the proposed plan impacted operations in Cincinnati, Chicago,
and other locations. We believe management might have increased savings by fully
analyzing or competing all affected sites.

Additional Management’s Comments

Management requested that we modify our report concerning a statement made by
Finance officials. As cited in our report, Finance officials told us that:

      “they were not aware of any specific procedural guidance similar to Decision
      Analysis Report procedures or validation procedures, which applied when a major
      operating decision was not considered an operating expense investment.”

Management requested that we modify our report by adding the following:

      “However, these officials did provide OIG with a copy of the Postal Service
      Purchasing Manual and recommended that it be reviewed for specific analytical
      guidelines.”




                                                   19
Mail Transport Equipment Service Center Network –                        NL-AR-05-001
 Network Realignment – Pittsburgh, Detroit, Cleveland


Evaluation of Additional Management’s Comments

The circumstances of the relevant discussion involved a meeting we had with Finance
officials on Wednesday, May 19, 2004. We cannot add the statement management
requested because the statement management requested is not accurate. Finance
officials did not provide a copy of the Purchasing Manual—nor would doing so have
been necessary. At the time of our May 19, 2004, meeting, we had already thoroughly
examined the Purchasing Manual.




                                                  20
